Legal Printers,

LLC
5614 Connecticut Avenue, NW #307

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 31, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Yvonne O. Reignat-Vodi d/b/a Shepherds Driving School v. Maryland
Motor Vehicle Administration

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 8,548 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
,
Notary Public
I State of Maryland
Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 31st day of August 2021.

